0

BECKER GALLAGHER
Briefs

and

I

Records

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for a Writ of
Certiorari in Bocilla Island Seaport, Inc., formerly
Highpoint Tower Technology, Inc. v. Commissioner of
the Internal Revenue Service, were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 22nd day of October, 2019:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
DAVID D. AUGHTRY

Counsel of Record

CHAMBERLAIN, HRDLICKA,
WHITE, WILLIAMS & AUGHTRY

191 Peachtree Street, 46th FL
Atlanta, Georgia 30303-174 7
Phone: (404) 659-1410
david.aughtry@chamberlainlaw.com

Attorney for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
1 Suite 102
Cincinnati, Ohio 45249

Franklin Square

I 1300 I Street, NW, Suite 400E
Washington, DC 20005

Kathleen E. Lyon [1 courtesy copy, U.S. Mail]
U.S. Department of Justice
Chief Appellate Section Tax Division
PO Box 502
950 Pennsylvania Ave NW
Washington, DC 20044
(202) 307-6370
Kathleen.E .Lyon@usdoj.gov
William C. Bogardus [1 courtesy copy]
Law Office of William C. Bogardus
Commerce Center One
333 E. River Dr., Suite 200
E. Hartford, CT 06108
(860) 290-4087
William. C.Bogardus@IRSCOUNSEL. TREAS. GOV
Teresa E. McLaughlin
[1 courtesy copy, U.S. Mail]
U.S. Department of Justice
Chief Appellate Section Tax Division
PO Box 502
950 Pennsylvania Ave. NW
Washington, DC 20044
(202) 514-4342
Teresa.e.mclaughlin@usdoj.gov

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 22, 2019.

Julie A Ker hner
Becker
agher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]
JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

